NO.

IN THE
CC0H5RS 03? SHE

SttASES

DENNIS MARTIN BEYER, JR.,
Petitioner,

v.
THE STATE OF TEXAS,
Respondent.

On Petition for a Writ of Certiorari
To the Court of Criminal Appeals of Texas

PROOF OF SERVICE

'

I, Dennis Martin Beyer, Jr., do declare that on this date,
December 16, 2026, I have served the enclosed Motion for Lea.ve to
Proceed In Forma Pauperis and Petition for a writ of certiorari
on each party's counsel, and on every other person required to
be served, by depositing an envelope containing the above docu­
ments in the United States Mail, first-class postage prepaid,
to the following names and addresses.
Kelsey Doty
Lamar County District Attorney
119 N. Main Street
Paris, Texas 75460

Stacy M. Soule
State Prosecuting Attorney
P.0. Box 13046
Austin, Texas 78711

I declare under penalty of perjury that the foregoing is true
and correct.
Executed on December 16, 2020
DENNIS MABTTN BF.YF.F

PETITIONER RECEIVED

DEC 3 0

I

